                                 Office of Inspector General
                                                                                                 August 2012
Business Loans
                                                                                        Alabama Woman Pleads Guilty to
                                             cords showing that he was the true         One Count of Money Laundering
Kentucky Man Sentenced to 42
                                             owner of the company. The second           On August 28, 2012, an Alabama
Months in Prison
                                             loan-fraud scheme involved a               woman pled guilty to a criminal In-
On July 24, 2012, a Kentucky man was         $100,000 SBA-guaranteed loan made          formation charging her with one
sentenced to 42 months in prison, 5          to his firm. The investigation re-         count of money laundering. This
years supervised release, $91,250.50         vealed that the subject overstated         case was predicated on a referral
in restitution, and a $500 assessment        the company’s annual revenues as           from the IRS CI. The information
fee. On February 22, 2012, he pled           $890,000, when the actual revenues         received alleged that an 8(a) con-
guilty to a five-count indictment            were only $35,240. In addition, pro-
                                                                                        struction company, wholly owned by
charging him with one count of bank          ceeds from both SBA loans were pro-        an individual, submitted false infor-
fraud, one count of forged security,         cessed, laundered, and diverted into       mation to obtain its 8(a) status and
one count of aggravated identity             his personal bank accounts instead of      an SBA-guaranteed loan. During the
theft, one count of wire fraud, and          being used for working capital for the     course of the investigation, it was
one count of credit card fraud. The          respective businesses. At the trial,       discovered that the individual’s girl-
investigation revealed that the man          the subject was also convicted for his     friend also submitted false income
used the identity of a federal air mar-      involvement in a residential property      and employment information to
shal to obtain an SBA Express loan           “flipping” scheme, a HUD rent-             obtain a $40,000 non-SBA loan from
and multiple credit cards. The subject       subsidy scheme, and a vehicle code         a bank using her boyfriend’s 2004
had previously been involved in a            violation. This is a joint investigation   Mercedes Benz as collateral. She
small business with the air marshal.         with the Michigan State Police, the        submitted a false letter of employ-
In addition, the investigation revealed      USSS, and the Wayne County Prose-          ment and a false IRS W-2 form stat-
that man deposited a counterfeit             cutor’s Office.                            ing she earned $87,245 of income
check into a federally insured finan-                                                   from her boyfriend’s firm. In reality,
cial institution. This is a joint investi-   Three Maryland Men Plead Guilty to         the man created the documents for
gation with the U.S. Secret Service          Conspiracy to Commit Bank Fraud            his girlfriend who was not employed
(USSS).                                                                                 by his firm and did not receive an
                                             On August 9, 2012, three Maryland
Michigan Man Ordered to Pay                  men pled guilty to one count of con-       income from his firm. At the direc-
$219,957 in Restitution                      spiracy to commit bank fraud. In ad-       tion of her boyfriend, the woman
                                             dition, the first agreed to a criminal     wired $20,000 of the loan proceeds
On August 7, 2012, the president of a
                                             forfeiture amount of $13,432,000;          to pay a debt owed by his firm. This
Michigan real estate investment firm
                                             the second agreed to a criminal for-       is a joint investigation with CID, CI,
was ordered to pay $219,957 in resti-
                                             feiture amount of $18,764,900; and         and DCIS.
tution. The restitution order was in
                                             the third agreed to a criminal forfei-
addition to his sentence handed
                                             ture amount of $15,725,000. The            Government Contracting &
down on May 16, 2012, following a
                                             investigation disclosed that the three
bench trial in Wayne County Circuit                                                     Business Development
                                             individuals were involved in a scheme
Court, Detroit, Michigan. His convic-
                                             to fraudulently obtain business loans
tions were a result of his participation                                                Co-Owners of a Massachusetts Cor-
                                             guaranteed by the SBA. Losses re-
in multiple fraud schemes, including                                                    poration Plead Guilty to Conspiracy
                                             sulting from the scheme are estimat-
two loan-fraud schemes against the
                                             ed to be over $52 million. This is a       to Commit Wire Fraud
SBA. The first loan-fraud scheme in-
                                             joint investigation with the Federal
volved a $98,000 SBA-guaranteed
                                             Bureau of Investigation (FBI) and the      On August 7, 2012, the vice-president
loan to a company purportedly
                                             U.S. Postal Inspection Service.            and co-owner of a Massachusetts
owned by his wife. The investigation,
however, corroborated state corpora-
                                                                                                               Page 2

                    corporation pled guilty to        willful failure to file a re-     card assigned to the SBA
                    one count of conspiracy to        turn, aiding and abetting         Alabama District Of-
                    commit wire fraud.                and causing an act to be          fice. Further, she filed ap-
                                                      done, and criminal forfei-        proximately 59 falsified
                    In addition, on August 30,        ture in U.S. District Court for   travel vouchers, resulting in
                    2012, the president and           the District of Columbia.         her receiving approximately
                    other co-owner of the com-        The investigation revealed        $21,905. She also made
                    pany was charged via an           that the man engaged in           approximately $3,346 of
                    Information with one count        bribery of government offi-       unauthorized purchases on
                    conspiracy to commit wire         cials from approximately          her government travel
                    fraud. The SBA OIG initiated      February 2009 until about         card. This case was initiated
                    this case based upon a re-        October 2011. Further, the        based on a referral from the
                    ferral from the Government        bribery related to a $1.3         Alabama District Office.
                    Accountability Office (GAO)       billion dollar U.S. Army con-
                                                                                        Two Women, Including
                    FraudNet alleging fraudu-         tract, which was performed
                                                                                        Former SBA Payroll Assis-
                    lent behavior by multiple         by 8(a) and Alaska Native
                                                                                        tant, Indicted on Conspira-
                    Service-Disabled Veteran-         Corporation contractors.
                    Owned (SDVO) firms.                                                 cy to Commit Wire Fraud
                                                      Additionally, the subject
                                                      engaged in a scheme to de-
                                                                                        On August 8, 2012, two
                    The allegations stated that       fraud and obtain money and
                                                                                        women were indicted on
                    SDVO firms, including this        property from financial in-
                                                                                        one count of conspiracy to
       “DC Man      corporation, had been             stitutions by means of false
                    fraudulently certified in or-                                       commit wire fraud in U.S.
                                                      and fraudulent pretenses,
     engaged in                                                                         District Court, District of
                    der to obtain government          representations, and prom-
                                                                                        Maryland. The first woman,
      bribery of    set-aside contracts. The          ises. Finally, the man failed
                                                                                        a former payroll assistant in
                    allegations against the firm      to file an income tax return
    government                                                                          the Office of Human Capital
                    indicated that it used anoth-     in 2010 for income in excess
                    er man’s service-disabled                                           Management at the SBA,
officials related                                     of $100,000. This is a joint
                                                                                        allegedly provided three
                    status to fraudulently estab-     investigation with the FBI;
  to $1.3 Billion                                                                       altered copies of her own
                    lish the firm as an SDVO for      the Defense Criminal Inves-
                                                                                        SBA Earning and Leave
      U.S. Army     the sole purpose of obtain-       tigative Service (DCIS); the
                                                                                        Statement to the second
                    ing set-aside contracts. This     Internal Revenue Service
       Contract”                                                                        woman to use in the financ-
                    is a joint investigation with     (IRS), Criminal Investigation
                    the Department of Veterans                                          ing of an automobile. The
                                                      Division (CI); and CID.
                                                                                        altered E & L Statement re-
                    Affairs, OIG; the Depart-
                                                                                        flected that the second
                    ment of Army, Criminal In-
                                                      Agency Management                 woman was an SBA employ-
                    vestigations Division (CID);
                                                                                        ee, even though she never
                    the Department of Labor,
                    OIG; and the General Ser-         Alabama Woman Pleads              worked at the SBA and was
                                                      Guilty to Fraud by Wire for       not employed at the time.
                    vices Administration, OIG.
                                                      Charges to Government             When the automobile deal-
                    Chief Financial Officer           Purchase Card                     ership requested additional
                    Charged in Five Count Crim-                                         proof of employment, the
                                                      On August 6, 2012, an Ala-
                    inal Information in District                                        first woman faxed a fourth
                                                      bama woman pled guilty to
                    of Columbia                                                         altered E & L Statement
                                                      one count of fraud by wire.
                    On August 21, 2012, the                                             from the SBA headquarters
                                                      The investigation revealed
                    chief financial officer of a                                        in Washington, DC, to the
                                                      that she made approximate-
                    firm was charged in a crimi-                                        dealership in Maryland.
                                                      ly $30,553 of personal, un-
                    nal Information with bribery      authorized purchases using
                    of a public official, conspira-   the government purchase
                    cy to commit bank fraud,
                                Audit Report 12-16
                                On August 6, 2012, the OIG issued Report 12-16, Audit of the Small Business Administra-
                                tion’s Procurement Process used to Reconfigure Space for the Office of International
Office of Inspector General
                                Trade. This advisory memorandum, the first of two reports, presented the results of the
    Peggy E. Gustafson,
                                OIG’s limited scope audit of the SBA’s procurement process used to reconfigure space for
     Inspector General
                                the Office of International Trade. While conducting the audit, the OIG found that SBA
                                personnel with purchase card authority had inappropriately purchased $34,044.77 in con-
     If you are aware of        struction transactions. These transactions were over the $2,000 threshold established by
suspected waste, fraud, or      the Federal Acquisition Regulations for construction purchases at the Washington, DC
abuse in any SBA program,       area offices.
 please report it online at
                                The OIG recommended that the SBA (1) ensure all purchase cardholders have, on file, cur-
http://www.sba.gov/office       rent delegation letters that reflect current limitations and approving official; (2) provide
-of-inspector-general/2662      training to SBA purchase cardholders and approving officials on the proper use of a gov-
                                ernment purchase card, to include purchase limitations and the definition of construction;
Or call the OIG Hotline toll-   and (3) review the routine maintenance needs of SBA buildings within the Washington,
  free, at (800) 767-0385       DC area.

    We welcome your             Audit Report 12-18
comments concerning this
   update or other OIG
                                On August 16, 2012, the OIG issued Report 12-18, A Detailed Repayment Ability Analy-
 publications. To obtain        sis is Needed on High-Dollar Early-Defaulted Loans to Prevent Future Improper Pay-
copies of these documents       ments. The limited scope review found that the assessment of delegated lender un-
   please contact us at:        derwriting performed at the National Guaranty Purchase Center (NGPC) on early-
                                defaulted loans was not effective in identifying whether lenders were clearly negligent
         SBA OIG                in determining the borrowers’ repayment ability. As a result, the NGPC made improp-
   409 Third Street SW,         er payments, which resulted in unnecessary losses to the Agency. Based on previous
        7th Floor               audit work, the OIG's analysis indicated that improved reviews for repayment ability
  Washington, DC 20416          could result in a cost savings to the SBA of at least $43 million over the next two
   E-mail: oig@sba.gov          years. To prevent future losses, the OIG recommended that the SBA perform a de-
                                tailed analysis of the delegated lenders’ computation of repayment ability on all high-
Telephone: (202) 205-6586
                                dollar early-defaulted loans and provide training to NGPC purchase staff.
   FAX (202) 205-7382




                                                            We’re on the Web!
                                        http://www.sba.gov/office-of-inspector-general
